                                                            9\-38
                                  Diary Note

    Phone call and visit from ,
                              -                .),   July   1991.

           brought me a case consisting of an anonymous letter sent
    to one of his   m                .It names a specific NSF grantee
I   that his organization has funded, but not any specific grant. It
    charges that grantee with general fraud and abuse. When 0
    brought up the letter, he noted that the complaint was basically
    about waste of-    funds. He has no idea what-     award might be
    involved.




    July 15, 1991
